<html>
<title> - ADDRESSING AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE NEEDS</title>
<body><pre>[Senate Hearing 115-480]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-480

    ADDRESSING AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE NEEDS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 28, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
35-123 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>                   
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 28, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Braceras, Carlos M., P.E., President at American Association of 
  State Highway and Transportation Officials, and Executive 
  Director, Utah Department of Transportation....................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Barrasso.........................................    19
        Senator Carper...........................................    22
        Senator Boozman..........................................    26
        Senator Duckworth........................................    28
    Response to an additional question from Senator Fischer......    30
Lanham, Robert, Vice President, Associated General Contractors of 
  America........................................................    31
    Prepared statement...........................................    33
    Responses to additional questions from:
        Senator Barrasso.........................................    43
        Senator Carper...........................................    45
        Senator Boozman..........................................    46
Corless, James, Executive Director, Sacramento Area Council of 
  Governments....................................................    48
    Prepared statement...........................................    50
    Responses to additional questions from:
        Senator Barrasso.........................................    60
        Senator Carper...........................................    61
    Response to an additional question from Senator Duckworth....    66

                          ADDITIONAL MATERIAL

Testimony by American Association of Port Authorities............    86
Statement for the Record of The American Society of Civil 
  Engineers......................................................    88
Letter to Senators Barrasso and Carper from the Intelligent 
  Transportation Society of America (ITS America), November 28, 
  2018...........................................................    92

 
    ADDRESSING AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE NEEDS

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Gillibrand, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning.
    Today we will discuss the need to address and modernize our 
Nation's surface transportation infrastructure.
    This Committee has historically taken the bipartisan lead 
on infrastructure issues in the Senate; 2018 is a good example. 
It has been a banner year for moving infrastructure legislation 
forward. In March of this year President Trump signed into law 
legislation from this Committee to reauthorize and enhance the 
EPA's Brownfields Program. This legislation is going to help 
clean up contaminated sites for reuse. It will spur much needed 
infrastructure development on abandoned industrial sites.
    In October President Trump signed America's Water 
Infrastructure Act. As the most significant water 
infrastructure bill passed in decades, the America's Water 
Infrastructure Act is going to grow the economy, cut Washington 
red tape, and keep communities safe.
    America's Water Infrastructure Act will upgrade and 
maintain aging dams and irrigation systems, increase water 
storage, and deepen nationally significant ports. It authorizes 
funds to repair aging drinking water systems so that 
communities across America have access to clean drinking water. 
It authorizes important projects. It will create jobs and grow 
our economy. It will benefit Americans for years to come.
    I believe the bipartisan successes on water infrastructure 
and brownfields cleanup can be replicated for America's surface 
transportation infrastructure as well.
    Our surface transportation infrastructure drives the 
health, the well being, and the prosperity of the Nation. We 
depend on highways, roads, and bridges to move people and 
goods, to get to our jobs, and to visit our loved ones. Simply 
put, surface transportation infrastructure connects all of us.
    But for far too long we have not prioritized the needs of 
these vital infrastructure systems. New funding is needed to 
keep pace with the demands, and burdensome Federal regulations 
have slowed efforts to spend money efficiently. The time has 
come to cut red tape and make significant investments in our 
roads and bridges, investment necessary to keep the Highway 
Trust Fund solvent.
    In a hearing last year in this Committee, Wyoming 
Department of Transportation Director Bill Panos stated in 
written testimony that ``Using the current predominantly 
formula based FAST Act approach to distribution would ensure 
both rural and urban States participate in the initiative.'' He 
said, ``It will also help push the benefits of any new 
infrastructure initiative out to the public promptly.''
    Now, I agree. Using the formula based approach will 
expedite the delivery of future infrastructure spending. 
Existing formula funding systems allow flexibility for both 
rural and urban States to use Federal money to its best 
advantage. What works in Los Angeles or Chicago may not work 
for smaller communities like Cody or Riverton, Wyoming.
    We also need to update the law to allow our States to build 
faster, better, cheaper, and smarter. When we make significant 
investments in our Nation's infrastructure, we need to be sure 
that money is being used as effectively and efficiently as 
possible.
    By cutting Washington's red tape, we can ensure that better 
roads and bridges can be delivered faster. As States, counties, 
and towns wait to obtain permits from Washington, costs for 
projects rise, and time is wasted. It shouldn't take a decade 
to permit a project that only takes months to build. We need to 
speed up project delivery, and I believe it can be done without 
sacrificing environmental safeguards.
    We also should explore new technology both in how we build 
and how we drive can reduce costs, can improve safety, and can 
increase the longevity of our roads and bridges. Better roads 
and bridges across America help all of us. Everyone benefits 
from safer highways, well maintained roads, and resilient 
bridges.
    America prides itself on its ingenuity and commitment to 
provide infrastructure that meets the needs of its people, and 
I know that my good friend, Senator Carper, agrees that it is 
up to our Committee, working together as we did on water 
infrastructure, working with the Administration to move forward 
with legislation to improve our highways, our roads, and 
bridges well into the future.
    We are a Committee that gets things done. We want to 
continue on that road and get a highway infrastructure bill 
passed next year.
    I would now like to recognize Ranking Member Carper for his 
remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Welcome to our witnesses, our guests, colleagues. I want to 
thank our Chairman for pulling us together this morning for 
signaling a clear interest in working seriously toward long 
term surface transportation reauthorization not at the middle 
of next year, not at the end of next year, starting right from 
the get-go.
    I have long believed that transportation infrastructure is 
an area where our Committee can again lead in a bipartisan 
fashion. The Chairman has mentioned the Water Resources 
Development Act.
    Ben Cardin has slipped off to another hearing in Foreign 
Relations, and Jim Inhofe has done the same thing in the Armed 
Services, but I just want to say to them and their staffs, 
everybody on the Committee and our staffs, Democrat and 
Republican, how proud I am of all of our collective efforts and 
grateful for our Chairman's leadership.
    I believe that next year we are going to have another 
opportunity to work on legislation that improves the state of 
our Nation's infrastructure. I focus hugely on what is a major 
role of Government. Lincoln used to say the role of Government 
is to do for the people what they cannot do for themselves. I 
would put a finer point on that and say a major role of 
Government is to help create a nurturing environment for job 
creation and job preservation.
    That is a big part of what we are responsible for, and 
roads, highways, bridges, rail, airports, ports, you name it, a 
big part of that nurturing environment. It is hugely important, 
and fortunately, this Committee has a lot of jurisdiction over, 
so we are going have fun working on this.
    Our Committee's minority members, our staffs are ready to 
go to work with our Republican colleagues when the new Congress 
convenes in a little more than a month. I say that knowing we 
face significant challenges in reauthorizing our surface 
transportation programs, the most important of which is the 
need to identify sustainable sources of funding to address the 
growing deficit in the Highway Trust Fund. This, my friends, is 
always the 800 pound gorilla in the room, as we know.
    In the last decade Congress had to transfer more than $140 
billion into the Highway Trust Fund because the Trust Fund 
revenues were insufficient to meet our investment needs. 
Additionally, Congress resorted to passing more than a dozen 
short term extensions of the transportation program the past 
decade, which created significant uncertainty for State and 
local agencies, and not uncommonly, added cost, significant 
cost because of that uncertainty to these projects.
    Funding uncertainty leads States to stop or slow down many 
projects. If highway authorization expires or funding runs out, 
the Federal Highway Administration is unable to reimburse 
States for Federal aid projects already underway and make it 
impossible to approve new projects.
    As we begin work on a new authorization of the Federal 
programs, one of our primary goals should be to avoid another 
series of short term extensions going forward, and that means 
having a bill passed before our current authorization expires 
in 2020.
    Albert Einstein once said, ``In adversity lies 
opportunity.'' That has been one of my guiding principles for 
as long as I can remember. I think it probably is for a lot of 
us. I believe that the opportunities to improve our 
transportation programs in the next few years are great, 
despite the challenges, the adversity that we are going to face 
along the way.
    New technology, new data are going to enable us to 
modernize how we plan, how we build, how we operate and use our 
infrastructure. We ought to look for ways to ensure that 
Federal programs support innovations that improve mobility, 
improve safety, air quality, and other goals as well.
    We can't have a conversation about surface transportation, 
though, without talking about climate change and the 
increasingly extreme weather that accompanies it. Our 
transportation sector is a major contributor to climate change, 
and our roads, bridges, railways are also extremely vulnerable 
to the effects of extreme weather fueled by climate change.
    According to the National Climate Assessment Report 
released last week by 13 Federal agencies, ``Expected increases 
in the severity and frequency of heavy precipitation events 
will affect inland infrastructure in every region, including 
access to roads, the viability of bridges, and the safety of 
pipelines.'' Our next infrastructure bill must respond to this 
threat by focusing on a more resilient and sustainable 
transportation sector to protect communities nationwide.
    Safety is another area which demands our close attention. 
Motor vehicle crashes have consistently been the leading cause 
of preventable deaths in our country, overtaken only recently 
by the opioid epidemic. More than 37,000 people are killed on 
our roadways each year. We can't continue to just accept this 
level of loss. Safety must be a top priority, and our 
investment decisions must reflect that prioritization.
    In closing, let me reiterate that I am encouraged by the 
bipartisan consensus on the need to invest in our 
infrastructure, particularly transportation. I truly hope that 
this will be the first of many opportunities to engage in a 
bipartisan discussion, in this room and outside of this room, 
to identify areas of agreement where we can work together, 
which, as we all know, is a primary reason our constituents 
sent us here in the first place, to work together and get some 
things done, like we did last year. Actually, like we did in 
the last week with the Coast Guard reauthorization bill. I 
thank those on this Committee who played a role in developing 
compromise there on ballast water and VIDA Blue.
    I want to welcome each of our witnesses, and thank you all 
again for joining us today, for our conversation. We look 
forward to learning and to hearing from you in just a minute.
    Thank you so much.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    We are now going to hear from our three witnesses today. 
First, we are going to hear from Carlos Braceras, who is 
President of the American Association of State Highway and 
Transportation Officials, AASHTO, and Executive Director of the 
Utah Department of Transportation. We will also hear from 
Robert Lanham, who is the Vice President at the Associated 
General Contractors of America; and James Corless, Executive 
Director for the Sacramento Area Council of Governments.
    I would like to remind the witnesses that your full written 
testimony will be included as part of the official hearing 
record, so please try to keep your statements to 5 minutes so 
we will have time for questions. I look forward to hearing the 
testimony from each of you.
    Let us begin with Mr. Braceras.

 STATEMENT OF CARLOS M. BRACERAS, P.E., PRESIDENT AT AMERICAN 
ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS, AND 
     EXECUTIVE DIRECTOR, UTAH DEPARTMENT OF TRANSPORTATION

    Mr. Braceras. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. Thank you for the 
opportunity to appear today and address the surface 
transportation investment needs faced by our country.
    My name is Carlos Braceras, and I serve as the Executive 
Director of the Utah Department of Transportation and as the 
President of the American Association of State Highway and 
Transportation Officials, AASHTO. It is my honor today to 
represent both the great State of Utah and AASHTO, which 
represents all 50 States plus the District of Columbia and 
Puerto Rico.
    State DOTs have the utmost appreciation for your 
Committee's leadership to shepherd the FAST Act in December 
2015. This legislation has ensured stability in the federally 
supported passenger rail, freight, safety, highway, and transit 
programs through 2020.
    To further build on the Federal surface transportation 
solid foundation, we believe that it is now time for all 
transportation stakeholders, led by Congress and the President, 
to begin work on reauthorizing the FAST Act and to ensure a 
smooth transition to the next long term bill without the need 
for disrupted extensions.
    AASHTO has already initiated, earlier this year, an 
extensive 18 month effort to develop and present our 
reauthorization policy recommendations this next October. As 
the FAST Act reauthorization gets underway, we recommend that 
Federal funds continue being provided through the existing 
formula based structure directly to States, rather than looking 
at untested approaches that will require more time and 
oversight.
    Building on the federally funded State administered highway 
program established over a century ago, Federal investment in 
all modes of transportation have allowed States and their local 
partners to fund a wide range of projects that serve the 
interest of the Nation as a whole. Formula funds work because 
they serve all corners of our country, improving mobility and 
the quality of life in urban, suburban, and rural areas.
    Even with the FAST Act, however, the investment backlog for 
transportation infrastructure continues to increase, reaching 
$836 billion for highways and bridges, $122 billion for 
transit. The percentage of Federal investment in transportation 
and water infrastructure has declined substantially from almost 
6 percent of total Federal spending in the 1960s to only 2.5 
percent by 2017.
    While Federal investment has lagged, States have stepped up 
in the meantime to fill the gap, with 31 States successfully 
enacting State level transportation packages since 2012. In 
Utah, our legislature recently adopted a State fuel tax and 
indexed both the fuel tax and registration fee to keep pace 
with inflation. Also, we are going to be the second State in 
the Nation to implement a road usage charge program.
    But efforts by Utah and other States to fund the system 
ourselves are not enough. The Federal Government must step up 
its share of investment, and it will not be easy. Just to keep 
our current FAST Act funding levels, Congress has to find $90 
billion in additional revenue for a 5 year bill or $114 billion 
for a 6 year bill.
    At the same time, the purchasing power of the Trust Fund 
revenues has declined substantially due to the flat per gallon 
motor fuel taxes that have not been adjusted since 1993, losing 
half of their value over the last quarter-century. That means 
the Federal highway programs are expected to experience a 51 
percent drop after the FAST Act in 2021, and the Federal 
transit programs would have to be zeroed out in 2021 and 2022.
    In the past, similar shortfall situations have led to cuts 
in Federal reimbursements to States on existing obligations, 
leading to serious cash flow problems for States and resulting 
in project delays. Simply put, this is a devastating scenario 
that we must do all we can to avoid.
    In addition, the FAST Act included a $7.6 billion 
rescission of unobligated highway contract authority to take 
place in 2020. This is a budget artifice that disrupts 
transportation planning and timely delivery of projects. The 
cumulative effect of rescissions with over $22 billion enacted 
since 2002 can wipe out the entire balance of contract 
authority held by States, which will lead to hard funding cuts 
to dollars promised under the FAST Act.
    We must take advantage of the short window that we have 
right now to head off the dual threat of a funding cliff and a 
rescission in 2020. If we miss this opportunity for action, the 
extremely costly and disruptive scenario for transportation 
programs around the country will become all but inevitable.
    State DOTs remain committed to assisting Congress in the 
development of policies that will ensure long term economic 
growth and enhance quality of life. You can be fully assured 
that AASHTO and the State DOTs will continue advocating for the 
reaffirmation of a strong Federal-State partnership to address 
our surface transportation investment needs.
    I want to thank you for the opportunity to testify today, 
and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Braceras follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[[Page 30]]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


[[Page 31]]

    Senator Barrasso. Well, thank you very much for sharing 
your best thoughts. We appreciate your comments.
    Now, Mr. Lanham.

STATEMENT OF ROBERT LANHAM, VICE PRESIDENT, ASSOCIATED GENERAL 
                     CONTRACTORS OF AMERICA

    Mr. Lanham. Chairman Barrasso, Ranking Member Carper, and 
distinguished Committee members, thank you for convening 
today's hearing.
    My name is Bob Lanham. I am a highway and bridge builder 
from Houston, Texas. I have the pleasure this year of serving 
as vice president of AGC. AGC is a national organization of 
26,500 businesses that are involved in every aspect of the 
construction business in all 50 States, Puerto Rico, and 
Washington, DC. AGC members build the Nation's infrastructure; 
its highways, bridges, airports, transit systems, rail 
facilities, and other transportation projects that keep America 
moving.
    Mr. Chairman, in my written testimony I stress several 
themes. The main overarching theme is that the time for 
infrastructure investment is now.
    As the Committee knows, there has been much talk at the 
White House and on Capitol Hill over the last 2 years about 
investing in and upgrading the Nation's infrastructure. While 
the Congress has moved infrastructure authorizations and 
provided new investment for current Federal infrastructure 
programs, more needs to be done.
    The American people, President Trump, bipartisan Members of 
Congress, and those of us in the stakeholder community have all 
expressed support and the need for a bold and robust 
infrastructure vision. There is no reason not to invest in our 
infrastructure now.
    AGC has long recognized and advocated for the need to 
invest in more types of infrastructure, from highways, roads, 
and bridges, to runways and water systems. As such, we have 
recommended to the Congress and the Administration that any new 
infrastructure plan should be broad based. However, we should 
caution that any new proposal must not ignore one of the 
gravest threats to the transportation investment in this 
Nation: the long term solvency of the Highway Trust Fund.
    Shortly after the FAST Act expires in September 2020, 
additional revenue of some $20 billion per year will be needed 
just to maintain current funding levels. Failing to address the 
Fund's solvency ongoing revenue shortfall leaves open the 
possibility of disruption and uncertainty for States, as well 
as the construction industry. AGC urges the Congress and the 
Administration to act sooner, rather than later.
    In the past funding uncertainties and short term extensions 
have led to project delays, cancellations, higher costs, delays 
of improvements that affect safety, efficiency, and economic 
development. If in fact the Congress acts on a broad based 
infrastructure bill, and we hope you do, failure to address the 
structural flaws in the Highway Trust Fund will undermine any 
potential benefits from such bill.

[[Page 32]]

    Increasing the motor fuels tax is the simplest and most 
effective way to achieve this goal, but several other viable 
revenue alternatives exist. We believe the Highway Trust Fund 
revenue construct must include three things: one, a reliable, 
dedicated, and sustainable revenue source derived from the 
users and the beneficiaries of our surface transportation 
system; two, resources sufficient to end the chronic shortfalls 
and support increased investment; and three, be dedicated 
solely to surface transportation improvements.
    Adhering to these principles would assure the States and 
the Federal Government that we will continue to be a reliable 
partner with the States and local governments in the funding 
and delivering of a safe transportation network that meets our 
Nation's needs, both economic and growth.
    Further, as the Congress potentially considers a 
comprehensive infrastructure proposal, it is important to 
recognize that two previous authorizations, the FAST Act and 
its predecessor, MAP-21, both reformed the Federal surface 
transportation programs in a manner that emphasized meeting 
national goals, while providing States flexibility. Given this 
admirable policy achievement, we do not need to create new 
programs or add additional procedures to deliver additional 
surface transportation investments as a part of any 
infrastructure initiative.
    To quite simply put it, our recommendation is for the 
Congress and the Administration to take this generational 
opportunity that presents itself in a broad, robust 
infrastructure bill to once and for all end the cycle of short 
term extensions and provide growing revenue to address our 
needs. This newfound certainty and the additional investments 
should allow for the reauthorization of the FAST Act prior to 
its expiration in 2020.
    Unfortunately, none of the themes in my testimony are new. 
I imagine that you have heard them before, time and time again. 
But what is different today is leaders on both ends of the 
spectrum are supportive of such a proposal, and this Committee 
and its leaders are an essential component in making this 
happen.
    I am thankful for the opportunity to testify today and look 
forward to any questions you might have.
    [The prepared statement of Mr. Lanham follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

[[Page 48]]

    Senator Barrasso. Well, thank you so very much for your 
thoughts and your testimony. I appreciate it.
    Mr. Corless.

STATEMENT OF JAMES CORLESS, EXECUTIVE DIRECTOR, SACRAMENTO AREA 
                     COUNCIL OF GOVERNMENTS

    Mr. Corless. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, I am James Corless, Executive 
Director of the Sacramento Area Council of Governments, and I 
am honored to be here today representing our Council, which 
represents 22 cities and 6 counties in the greater Sacramento 
region.
    As you know, I am from California, but I am also from the 
heartland of California. Our region is not coastal in 
California; we are central and inland. We are not deep blue; we 
are a patchwork of reds, blues, and purples; and 85 percent of 
our land in our region is rural. We are truly a microcosm of 
America.
    Senator Carper, you like to quote Einstein. I like to quote 
my 13-year-old daughter, who says, ``Daddy, Sacramento, we've 
got some problems and challenges, but we're real, we're 
genuine, and we've tackled them head on.'' In that spirit, I am 
here this morning to talk about four major points that we 
really think you need to address in the next authorization 
bill: funding, innovation, long term planning, and bridging the 
urban-rural divide.
    On funding, my two colleagues here have said much that I 
would agree with, and I am not going to repeat that, but I will 
say one thing. We are going to have to come up with a successor 
to the gas tax sooner or later, whether it is sooner or later.
    I think there were comments in the media this morning that 
seemed to suggest, perhaps, that I was against a miles-traveled 
fee, and I want to just correct that for the record. I am not 
against a miles-traveled fee in terms of something that will 
replace the gas tax, but hear me out on this. This is very 
important that we address it.
    Twenty miles traveled on a two-lane rural road is not the 
same as 20 miles traveled on an urban interstate at 9 a.m. at 
peak hour, rush hour traffic congestion. They exact different 
costs. The urban interstate is going to require us to build 
billions of new infrastructure, so we want to manage that 
demand. We can manage that demand through effective pricing. It 
is not just about the miles you travel; it is about when you 
travel; it is about how you travel.
    So, in the next authorization bill we want more pilot 
programs. We want to be able to be more creative. We want to 
test pricing schemes much like the utility sector now prices 
utilities. Most things in the private sector are priced by time 
of day, by peak travel. We do not do this in the transportation 
sector, and we need to correct that.
    Second point on innovation. New technology innovation--you 
all know this--is coming faster than we know it. Now, we made 
advances in MAP-21 and the FAST Act, but we are falling further 
behind in terms of the speed of technology and things that are 
transforming our sector. From the local level, as important as 
the Federal program is, it seems out of touch, given where 
technology is.

[[Page 49]]

    In the Sacramento region, we have started a program called 
Civic Lab. This was a really interesting idea. We took 20 
teams, cities, counties, and transit agencies, and we 
challenged them to come up and solve their transportation 
challenges with a couple of rules: you can't spend a lot of 
money, you have to use technology, you have to use creative 
problem solving, and must partner with the private sector. We 
did an umbrella procurement. We allowed them to pull off our 
umbrella procurements so they didn't have to go through their 
own procurements to partner with private sector companies.
    The projects that came out were truly inspirational. A low 
income project to move youth to summer construction jobs so low 
income youth could actually show up on time, at 7 a.m. every 
day, through a shuttle service; on-demand transit for a rural 
community where you couldn't make fixed route public transit 
work to get folks to work and to jobs on time; a new traffic 
management program that can help one of our more popular rural 
farm areas deal with peak hour congestion during harvest 
season.
    But here is the rub: we can't take our Federal funds and 
actually use them to fund these projects. We don't have that 
eligibility and that flexibility, and we need that. If you want 
to embrace innovation, we have to do that.
    USDOT made a huge stride with its Smart Cities Challenge, 
and I say recreate that, but do it for communities of all 
sizes, urban, rural, and suburban, and even State level 
programs that would be State versions of a challenge for 
communities to use technology and innovation to come up with 
quick and effective low cost solutions.
    In terms of the planning process, it is too slow, it is too 
cumbersome. We have too much to do. It is too much of a check-
box exercise. The future is changing rapidly, and we need our 
planning process to be quicker, easier, more meaningful, and 
more data driven. USDOT can do a lot in this regard. We 
actually are using one of its datasets that it procured for the 
entire Nation. It is a great use of its economy of scale. We 
also need USDOT to help build the capacity of our agencies.
    Finally, bridging the urban-rural divide, we have had a 
program now for 10 years that we call the Rural-Urban 
Connection Strategy, and we learned, first and foremost in that 
program, that broadband and high speed communications are seen 
as a form of transportation for our rural communities. We need 
eligibility in our Federal funds to allow those kinds of 
communication networks and broadband to be funded right along 
transportation; it is equal to or greater than in terms of the 
need of rural communities, as it is as mobility and roads and 
highways.
    With that, I would be happy to answer any questions, and 
thank you again for the invitation.
    [The prepared statement of Mr. Corless follows:]

[[Page 50]]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


[[Page 67]]

    Senator Barrasso. Well, we appreciate the testimony of all 
of you. We are going to start with some questions.
    I want to start, Mr. Braceras, if I could, with you. Utah, 
Wyoming, Senator Fischer, who is on this Committee from 
Nebraska, when she was in the State senate she chaired the 
transportation committee in the State for Nebraska; I chaired 
the transportation committee in the State of Wyoming.
    We have a poster board here we are going to pull up that 
just kind of shows the bottom part, the orange I-80 heading to 
Utah, Wyoming, and then to Nebraska. The orange is where we are 
today. The green is where we are going to be in the next decade 
or so, with expanded amounts of traffic going back and forth. 
Clearly, that is where all the action is traffic-wise in 
Wyoming. Lots of the State doesn't have that kind of traffic, 
but we see it there, and then going down to Denver, Colorado.
    The Congressional Research Service has come up with this 
map about freight traffic specifically. As you know, for every 
one of the big trucks, that is like 4,000 cars in terms of the 
impact on the roads, so we are going to see that.
    What can be done, do you think, to help ensure that 
interstates in rural States like ours in many ways, as well as 
Nebraska, can keep pace with the increasing interstate 
commerce, as well as the commuting that goes along?
    Mr. Braceras. Thank you for the question, Mr. Chairman. It 
is interesting how connected we are as a Nation and how our 
transportation system is really providing that connection.
    When there is a big snowstorm in Wyoming and I-80 shuts 
down----
    Senator Barrasso. Like it did on Sunday.
    Mr. Braceras [continuing]. The trucks back up into Utah, 
and we, on our variable message signs, are indicating the 
conditions of what I-80 is looking like in Wyoming, and 
truckers are making a decision of where they are going to spend 
their time because their hours of service are limited.
    I think the point that our Nation depends on a connected 
transportation system, and it needs to function, and it needs 
to be reliable and dependable for this to work. When you think 
about the purpose of a transportation system, every single 
transportation system in the world was created around the 
fundamental purpose of growing an economy and improving quality 
of life. It is as simple as that. And if our system is not 
functioning well, it impacts our entire country.
    So, I tell people in the State of Utah that I need a 
Federal transportation program, I need a Federal transportation 
vision because I need the roads to function in Nebraska, in 
Wyoming, in California in order for my Utah companies to be 
successful.
    So, Mr. Chairman, I think it is important that for us to 
recognize that even though we are connected with the 
transportation system, that every State is unique, and regions 
within States are unique, and it is important for us at the 
Federal level to recognize that they are different. Most 
solutions are best done when they are done with locals and 
being done together, so if the Federal Government could work 
with States and with regions to be able to provide the 
flexibility to find the solutions that work for that region, 
then we

[[Page 68]]

can start to address the transportation system for the entire 
country.
    Senator Barrasso. You still believe--I think it was in 
testimony that was given by your organization in the House--
that using the highway formula funding, as opposed to trying to 
recreate something, is the way to go?
    Mr. Braceras. Mr. Chairman, absolutely. As I stated in my 
oral testimony as well, it is a tried and proven method of 
delivering the highway program. We have been doing this now for 
about 100 years. We can make sure that we deliver the 
appropriate program, essentially the right project at the right 
time for the right region in the most efficient and effective 
way with the existing Federal funding formula program that is 
in place today.
    Senator Barrasso. This is for you, Mr. Lanham. We had a 
hearing earlier about ocean plastic and the oceans that are 
affecting plastics and what could be used, how plastics could 
better be used. This was a hearing that we had on plastics, and 
it was interesting, the Washington Post had an article last 
month headlined Plastic Bottles May Become Part of Roads 
Surface, trying to find what we could do with all of the 
plastics that are out there.
    The article explains that using recycled plastics in road 
and highway construction can make our roads and highways 
actually more resilient, that is what they are claiming there. 
In other words, using plastic waste can make our roads last 
longer, save taxpayer money.
    What do you think about the idea of actually using 
innovative materials, or others, about recycled tires and 
things to use in road building, and is there a future in that?
    Mr. Lanham. Mr. Chairman, we are big supporters of it and 
have been doing it for a very, very long time as a company. 
Williams Brothers Construction Company, we constructed 24 miles 
of Interstate 10 west of downtown Houston. The existing 
roadway, every piece of that was recycled and reintegrated back 
into the construction of the new freeway; nothing was thrown 
away. So, though that is not new materials, we didn't have to 
go to the quarries to obtain aggregates recently mined; we were 
able to reuse the materials and integrate.
    I think other products are out there. We have used ground 
tires in asphalt pavements. There are opportunities, I think, 
out there to continue that innovation. What needs to understand 
is how the business works in construction with regards to 
economic drivers and costs, and how it ends up affecting the 
State in the price of their projects.
    We look at things in mass and volume. If I have a project, 
and I need 100,000 tons of aggregate to produce the pavements 
for this job, somebody asked me can I use some crushed 
porcelain in there, I say, what is the volume available? A 
thousand tons. OK, it has become a nuisance for business, as 
opposed to being an actual commodity throughput.
    So, those are the kinds of things that need to be weighed 
in the discussion, but it has been proven, we can effectively 
recycle and maintain quality product for the taxpayer.
    Senator Barrasso. Thank you.
    Senator Carper.

[[Page 69]]

    Senator Carper. I was looking forward to this hearing when 
I saw who was going to testify, and you have exceeded my 
expectations. This like a smorgasbord of good ideas and good 
advice, so thank you for all of it.
    I had a visit a month or so ago in my office from folks 
from Hyundai who have a couple of plants in this country, a 
Korean company, and we were talking about fuel efficiency for 
the vehicles that they are going to be building in the future. 
I remember being at the Detroit Auto Show about 10 years ago. 
The car of the year that year was the Chevrolet Volt. It was a 
hybrid combination battery and regular gasoline driven engine. 
It got about 38 miles on a charge. This last year the car of 
the year at the Detroit Auto Show was the Chevrolet Bolt. It is 
just a straight electric vehicle, battery, and it gets about 
140 miles to the charge.
    Folks from Hyundai came by and they told me that about in a 
year or so they are going to be launching some new model 
vehicles that will be all electric and that will get, I think 
they said, about 250 miles to the charge. They are not going to 
buy any gasoline; they are not going to buy any diesel.
    We have some States that are showing us the way of how to 
make sure that the folks that are not contributing through 
traditional user fees to the building and maintenance of our 
roads, while actually contributing to reducing the threat of 
climate change and extreme weather that we are seeing 
everywhere almost every week.
    A couple of us on this Committee, including our Chair and 
Senator Inhofe and I, I think Senator Cardin as well, met with 
the President several months ago. He brought us in to talk 
about transportation infrastructure. I was surprised; I 
expected him to basically talk for an hour and then say we were 
finished, but he talked for a few minutes and then said what do 
you all think. I shared with him an idea that George Voinovich 
and I suggested to Bo Simpson almost 10 years ago, and the idea 
was to restore the purchasing power of the traditional user 
fees, gas and diesel, 4 cents a year for 4 years, and then to 
index going forward.
    I suggested to the President that that might be a good 
idea, and he cut me off. He cut me off, and he said, that's not 
enough. He said it ought to be 25 cents a gallon, and it should 
be now. He said, I know there will be a lot of political 
pushback on that, but he said, I will take the heat for that.
    Later in the day I talked to Elaine Chao, our Secretary of 
Transportation, and I said, was he serious, did he really mean 
that? She said, he has been talking about it every week for 
weeks.
    So I think, as a former Governor, the key in getting stuff 
done on the financing side is leadership, whether you are the 
Governor for your State or you happen to be President of the 
United States. If the President will show that kind of 
leadership, we can make a whole lot of progress.
    We have provided under previous legislation, as you know, a 
national pilot for about a dozen States for road user fees. How 
is that going? Any ideas? Any thoughts?
    Go ahead.
    Mr. Braceras. Yes. Thank you, Senator, for that question. 
There are a couple activities taking place. There is a 
coalition of 14 west

[[Page 70]]

ern States that are involved in what we call RUC West, Road 
Usage Charge West, and we have been working together for----
    Senator Carper. I call that rock and roll.
    [Laughter.]
    Mr. Braceras. It is almost that cool. My wife rolls her 
eyes.
    But we got together, and what we are doing is, we are 
trying to learn even the questions to ask on what it takes to 
implement a road usage charge. So the State of Utah has been 
participating in this for the last 6 years, and what we do is 
we provide funding and we do little projects, all working 
together to be able to start to move this idea forward.
    This last legislative session we brought this to our 
legislature, and we had this discussion about it, and we 
thought they would maybe sponsor a small pilot program on their 
own. Instead, they passed legislation instructing us to 
actually implement a voluntary program for road usage charge 
for alternative fuel vehicles, essentially the electric 
vehicles, because they see very much this transition that is 
happening. It is clearly an inflexion point in the technology 
for automobiles where it is going to be electric vehicles, and 
it is going to happen faster than most people think.
    So, by January 2020 we have to have a program turned on to 
actually have an implemented program. So, we are going to learn 
from this, and expectations are that we are going to expand 
this as we become more comfortable with how to do this.
    The importance in transportation--and Bob mentioned this in 
his testimony--the connection between the use and how much you 
pay for that usage or how much impact you make on that system, 
that connection is an important one, and a road usage charge, I 
believe, provides the ability to make that connection, and it 
also provides the opportunity to price appropriately. As Mr. 
Corless said in his testimony, it is important to recognize 
that 5 miles in rural Utah is quite different than 5 miles in 
urban Utah, and one of the points that we have been selling to 
our--not selling--excuse me. One of the points, as we have been 
working with the Farm Bureau in Utah and the rural members of 
our State, is that it will give us the ability to not charge on 
non-public roads. So, if you are running on a private road, you 
won't be charged for that usage, and that is something that is 
becoming attractive.
    So I think there are ways to be able to implement a program 
that will help us carry the transportation forward. But I don't 
think this is something that happens in the next 5 years; I 
think it is important to look at the gas tax. That is going to 
be the way we fund transportation, I believe, for the next 20 
or so years, but we need to recognize a transition is taking 
place.
    Senator Carper. All right.
    My time has expired. Let me just ask Mr. Lanham and Mr. 
Corless, do you approve this message?
    Mr. Lanham. Yes, sir.
    Senator Carper. Mr. Corless.
    Mr. Corless. Senator Carper, I think the Federal Government 
will only follow the States on the next system of pricing. I 
think we have 5 to 10 years to get more than 25 States to 
really implement what Utah is doing and other States, so we 
have to get on with it. We have a short term problem and a long 
term problem,

[[Page 71]]

but that long term problem is going to come at us very quickly, 
and I think we need a majority of the States to be out there 
deploying so the Feds can pick up the best ideas coming from 
the States and localities.
    Senator Carper. Good.
    All right, thank you very, very much. Thanks for your 
example in Utah, especially.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me, real quickly, try to get three things in, crowded, 
just so I can get your comments, and if there isn't time to do 
it, we can do this for the record. This will be for all three 
of you. Those three things would be work force development, our 
freight program, which we have included in the past, and then 
also the project delivery problem.
    Starting off with the work force development, I am very 
proud, and I think you know this, Mr. Lanham, because you have 
a lot of good members in Oklahoma. You have probably heard me 
say this before, but we had a Governor once named Bartlett. He 
and I, when I was in the State senate--and we are talking about 
way back, before most of you guys up here were even born. Back 
in the 1960s we started that program. We started that for 
Oklahoma. It has been a leader for a long period of time. In 
fact, we have recently extended that.
    One of the problems we have in work force development--and 
I want to get comments from each one of you on that issue--is 
one that is across the board. When we did the FAA 
reauthorization bill, I put an amendment on there that you had 
experimental pilot programs to develop work force development 
program in the FAA reauthorization bill.
    Anyone want to comment on that issue, work force 
development? Now, you are doing a good job. I know that you 
guys put forth programs where you can hire people right out of 
these technical programs, and that has been very, very 
effective in Oklahoma.
    Mr. Lanham. Part of what we call our OJT, on the job 
training, program where we liaison with the technical schools 
or can work with the vocational training out of the high 
schools, but yes, sir, works well. It is a major emphasis and 
focus for AGC of America. We are partnering with AASHTO, 
Federal highways. We have a pilot program trying to go. We have 
five States that have signed on that are working with a test 
project on how to integrate work force development.
    We are battling a lot of cultural stigma with regards to 
most of our challenges. It is not with professional trades, 
engineers; it is with the construction trades, the carpenters. 
And that is not a college bound career. We are offering 
alternatives to young people and well paying careers, and how 
do we reach through that bias that seems to be out there.
    Senator Inhofe. Well, thank you. Is it fair to say that you 
have had comparable success in other States that you have had 
in Oklahoma? Because you have had success in Oklahoma.
    Mr. Lanham. We have, yes, sir.
    Senator Inhofe. That is good.

[[Page 72]]

    On the issue of the freight program that we had, Mr. 
Braceras, I notice you made a comment in your written testimony 
on an Oklahoma company, an Enid, Oklahoma, company, so you are 
familiar with the problem.
    I was chair of this Committee when we did the FAST Act, and 
we developed a program for the first time, a freight program. 
Any comments to how that seems to be working right now or areas 
for improvement on that?
    Mr. Braceras. Thank you, Senator. That program is working 
very well for the State of Utah. To me, the freight program was 
a clear recognition by this Committee and Congress of the 
importance that the transportation system serves for freight. 
When you think about it, the freight is that connection for 
people. Even if you are not out there using the roadways, you 
depend on the freight that is being moved by the highway system 
and the rail system. So I consider the freight program one of 
the really good additions that came about. And we are doing 
projects right now that we could not have gotten to and would 
not have been able to prioritize but for the freight program, 
so thank you.
    Senator Inhofe. Well, good.
    Mr. Lanham, it was an off the record comment that you made 
in response to something Senator Barrasso stated. The Federal 
formula program has worked. That is one of the few things in 
government that seems to be working. It does take into 
consideration the needs of various States; they have a lot of 
input. When you come up with a formula, and you introduce a 
comprehensive bill, and everyone is mad about it at this table 
over here, you have done a good job.
    Any other comments on the two subjects that I brought up on 
this?
    All right, thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I thank all three 
of our witnesses.
    I live in Baltimore and commute to Washington, so I have a 
vested interest in us getting this right. Tomorrow, Senator Van 
Hollen and I have a breakfast meeting in Montgomery County. It 
is about 40 miles from my house, and where the meeting is is 
about 10 miles from the Capitol, and I will be commuting about 
3 hours tomorrow morning. We have a challenge in this region, 
and we have a challenge in this country, so this issue is 
critically important to all of us.
    The FAST Act passed in 2015. We hailed it as a major 
accomplishment, and it did give us predictability through 
September 30th, 2020. This Congress should have dealt with 
infrastructure. We were not able to deal with the 
transportation infrastructure; we did do it with water, and I 
agree with the assessment of that being a great accomplishment. 
But we are going to have to deal with it in the next Congress. 
It has to be done.
    What I would like to just get your views on is that 
legislation we passed in 2015, it had acceptable balance 
between highways and transit; it dealt with major projects of 
national significance; it continued creative financing through 
the TIFIA program, provided

[[Page 73]]

local flexibilities. We have already talked about that, 
including the transportation alternative programs. Dealt with 
the regulatory system; tried to streamline that process. 
Senator Inhofe mentioned some of the other areas in dealing 
with freight.
    Now, I would like to just get your view as to what area of 
change would you like to see most as Congress looks at a 
multiyear reauthorization of our transportation infrastructure. 
I would illuminate that I hope we would all agree is our No. 1 
priority, that is, the size of the program, making it as large 
as possible, obviously requiring revenues; and then, second, 
making it as long multiyear as we possibly can because of the 
predictability of these projects having a longer lead time, the 
more aggressive we can be on infrastructure in this country.
    So, recognizing we want a robust program, we want it 
adequately funded. Some of us do serve on the Finance 
Committee, so we are going to have to deal with that issue. But 
the EPW Committee is the principal committee on this issue, and 
I would just welcome your thoughts as to where you would like 
to see improvement on the FAST Act as it relates to the issues 
that are under our Committee's jurisdiction.
    Mr. Braceras. Thank you, Senator, for that question. We 
have made significant progress over the last, I would say, 15 
to 20 years in how the program is being delivered right now. 
There has been a lot of work done in streamlining the project 
delivery.
    And when I use that word streamlining, I hope it is not 
looked at in an offensive way. The flexibility that Congress 
has given to State DOTs, we have assumed NEPA, the 
environmental process. The State of Utah has taken over that 
responsibility, and it clearly has allowed us to do the right 
thing at the right time for our citizens. We are the biggest 
champions of the environment in Utah; that is where we live, 
that is what we love, and our citizens hold us accountable for 
that, so I thank you for that flexibility in that area.
    I would ask that we continue to look at options for 
providing additional flexibility for how we use the funding 
that we have available to us. One of the things that we do 
aggressively is we exchange Federal money for State money for 
our locals. Our locals don't do as many Federal projects as we 
do, and they struggle with the process. So, they line up, and 
we exchange at 85 cents on the dollar, and we give them State 
money that gives them the flexibility to deliver the projects 
that they need for their citizens, and they can deliver it more 
effectively and efficiently, and we then manage the Federal 
program because we do it every day.
    So, I think that is an example of how the Federal money 
brings some restrictions with how we deliver these projects, 
and it doesn't have to be as complicated as it is. If Congress 
and the Administration can focus and be partners on the 
outcomes of what we are trying to achieve. We are trying to 
save lives, we are trying to lower the total cost of ownership 
of our infrastructure by doing the right project at the right 
time. And we are trying to improve mobility so you don't have 
to spend 3 hours commuting to a meeting that probably shouldn't 
take that long. This is all about quality of life and our 
economies, so if we could focus on those outcomes more, provide

[[Page 74]]

flexibility for States and locals to be able to deliver the 
program, I believe we can make another step forward.
    Mr. Corless. Senator Cardin, three things quickly. First is 
innovation and technology. I think we do have some programs in 
the current FAST Act, but we have to make it real. We have to 
go beyond just sort of eligibility. We have to really push a 
whole different thought process around ITS, innovation 
technology, and really imbedding those in how we operate the 
transportation system, No. 1.
    Two, I think we have to strengthen regional planning, rural 
planning, build capacity among organizations like mine.
    Then finally, I think--I credit Utah for this but also the 
State of Virginia--doing a lot of very quantitative data driven 
project selection using data. We have to basically re-instill 
trust among the public that those investments, limited dollars, 
are getting the biggest bang for the buck. I think Virginia has 
gone from zero to 60 with its SMART SCALE process. It did that 
after it passed a major revenue increase at the State level. It 
is transparent. People understand what benefits they get from 
those projects.
    We have to get into that across all the States and all the 
regions in the country, and I think the USDOT can have a strong 
role in helping build that capacity for us on the data side.
    Mr. Lanham. Senator, I would just add two more things that 
have been discussed. One is backup on work force development. I 
think there is an opportunity to provide for work force 
development encouragement in the next reauthorization. The 
second is, continue to look for opportunities to add what I 
would call contemporaneous reviews in the NEPA process and the 
permitting process. There are still some opportunities where 
those things can run concurrently instead of consecutively and 
save some time, because we end up with a duplicate process, and 
I think we have a hard time explaining that to the public, what 
we do.
    Senator Cardin. Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Wicker.
    Senator Wicker. Mr. Chairman and Mr. Ranking Member, I have 
to say that this has been a very disappointing hearing. I was 
hoping you would choose some magicians to come in here, perhaps 
some alchemist to tell us how to stir a pot of lead, get it to 
the right temperature, and turn it into silver and gold, and we 
wouldn't actually have to pay for infrastructure.
    But here we have learned, and we are hearing it from both 
sides of the aisle, presumably even from the President of the 
United States, that if we want to build roads and bridges and 
infrastructure, we have to come up with some revenue solutions 
to actually pay for this. So, I am just heartsick and 
disappointed that we are having to go down this path.
    But since we are, Mr. Braceras, you are saying that the 
Highway Trust Fund is a solid mechanism for delivering the 
funds in the right way, is that correct?
    Mr. Braceras. Yes, sir.
    Senator Wicker. And you think for the next 10 to 20 years 
the gasoline tax is going to be the way to put money into that 
Trust Fund?

[[Page 75]]

    Mr. Braceras. I believe so, yes, sir.
    Senator Wicker. OK. Do you advocate or have you given any 
thought to going from the per gallon to a percentage of the 
price, as some States have done?
    Mr. Braceras. Yes. In the State of Utah we haven't made 
that jump, but we have indexed the gas tax, and the gas tax 
rises based on CPI.
    Senator Wicker. So it is the same result.
    Mr. Braceras. It is close to the same result. The 
legislature has put a cap, but it is a pretty high cap, on how 
high that will continue to go, and every year our tax 
commission makes that adjustment based on the cost.
    Senator Wicker. When was the last per gallon enacted?
    Mr. Braceras. In 2015.
    Senator Wicker. OK. And what is it?
    Mr. Braceras. Today, it is sitting at 29----
    Senator Wicker. I am asking the Federal.
    Mr. Braceras. The Federal rate is 18.4 on gas.
    Senator Wicker. And when was that implemented?
    Mr. Braceras. In 1993.
    Senator Wicker. OK. What if we had indexed that back at 
that point? Where would we be?
    Mr. Braceras. We have lost about 50 percent of our 
purchasing power, Senator, since that point. Now, based on what 
you set as an index, I don't know if you would completely make 
that up, but we would not be fighting. In my opinion, we are 
fighting two battles: we are fighting the inflation battle that 
is a pretty powerful one, and we are also fighting the fact 
that we haven't made a change in so long.
    Senator Wicker. So, if we had just kept it even with 
inflation, we would be 50 percent better?
    Mr. Braceras. Yes, sir.
    Senator Wicker. Or words to that effect. Now, your 
organization also has published a matrix of illustrative 
surface transportation revenue options which would be ways, in 
decades to come, to move to other forms. And then we have been 
talking about this user fee or whatever the terms are, vehicles 
per mile and things like that.
    Let me ask you, Mr. Braceras, which of those options do you 
think are the most viable going forward?
    And then if Mr. Corless and Mr. Lanham could follow up and 
explain exactly mechanically how this works and we 
differentiate between rural roads and private roads and 
interstate highways in our ability to collect the revenues, and 
are there privacy concerns that you think are real in terms of 
vehicle owners having to give out that information.
    Mr. Braceras. Senator, I will speak for Carlos Braceras as 
Executive Director of the Utah DOT in this response. Yes, I 
think the gas tax is the way to go in the future. As an 
association, we provided a menu of options, and over the next 
18 months we want to home in on a better way of providing 
advice to Congress on what options are available.
    But as you have the challenge of getting all your members 
on the same page, we have the same challenges, 52 members to 
get on the same page as well. But I believe the gas tax is the 
way to go in

[[Page 76]]

the near future, and I also believe that road usage charge, 
which is the term we are using instead of VMT, but road usage 
charge is the path forward for a longer term fix to this, and 
we need to start transitioning in.
    Senator Wicker. OK, so how hard is it to differentiate? How 
do we do that, between the rural roads and the interstates and 
private roads?
    Mr. Lanham. Senator, you can differentiate, but it will 
require technology that we have seen some pushback with GPS 
tracking. Obviously, where you have driven has been an issue 
for many groups with regards to privacy; on what road was I 
driving at what time. But that is exactly the information we 
need because engineers, the smart ones, that is exactly how 
they design these roads, is what kind of traffic is going to be 
on and when. So, I think it feeds to the managers of the system 
how to better take care of the roads and design them better in 
the future when we actually have better data in the entire 
network.
    Senator Wicker. How do we do it, Mr. Corless?
    Mr. Corless. Well, Senator, either you do odometer 
readings, which is very imprecise and every road is the same, 
every mile is the same, or you do it with what is already the 
technologies installed in most vehicles; you have a device 
using GPS, it knows where you are going. There are definite 
privacy concerns.
    The good news about us having 5 to 7 years is I believe we 
can work those out. But I think we have to be precise; we have 
to use GPS, because there is a fairness issue that I brought 
up, and I don't think every mile is the same if you travel 
rural versus urban.
    Senator Barrasso. Thank you, Senator Wicker. Staff has been 
instructed, based on your admonition, to make sure that for the 
next Committee hearing we will have an authoritative, credible, 
and accurate alchemist to make a presentation.
    Senator Wicker. Thank you very much. I appreciate your 
attending to that.
    [Laughter.]
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank you all for your testimony. I really want to pick up 
on Senator Wicker's questions because I think we all recognize, 
on a bipartisan basis, we have huge infrastructure needs in 
many areas and obviously in surface transportation, and a big 
gap between those needs and the resources available, and I 
think the political stumbling block really has been identifying 
a way that we can bring in those revenues.
    As I understand the testimony of all of you, in the short 
term, you believe some kind of increase in the Federal motor 
fuels tax is the way to go. Is that correct for all three of 
you?
    Mr. Braceras. Yes.
    Mr. Lanham. Yes.
    Mr. Corless. Yes.
    Senator Van Hollen. And just in terms of the politics of 
this, as you look around the country now, that is still the 
primary funding mechanism for States, is it not?
    Mr. Braceras. Yes.
    Mr. Lanham. Yes.

[[Page 77]]

    Mr. Corless. Yes.
    Senator Van Hollen. All right. And that is true in States 
that are dominated by more Republican Governors and 
legislatures, as well as Democratic Governors, right? And you 
increased it in Utah in 2015 and a lot of other States in the 
last 5 years increased their gas taxes?
    Mr. Braceras. Thirty-one other States.
    Senator Van Hollen. In the last?
    Mr. Braceras. Thirty-one other States since 2012.
    Senator Van Hollen. Since 2012. So I just think, as we look 
at both the short term and then the longer term, it is 
important to look at some of the State activity. And I agree, 
as we look to the long term, the States are also sort of 
examples of innovations that we should see how they test out 
and whether we can adopt them.
    In the absence of additional Federal funding, States, or 
certainly localities that are able to do it based on the 
concentration of populations, are moving forward more in the 
area of public-private partnerships, is that right?
    Mr. Braceras. Yes.
    Senator Van Hollen. And can you talk about how that has 
sort of picked up around the country? I know in Maryland, for 
one of our major transit projects, the Purple Line, it is a 
public-private partnership. So, can you talk about the examples 
of where that has worked well, but also some of the potential 
horror stories that people encounter with public-private 
partnerships and where you see that fitting in to this 
equation?
    Mr. Braceras. I am not sure if I can come up with a horror 
story, but I think the important thing on a public-private 
partnership is, again, one size does not fit all in these 
because we are not all the same. A public-private partnership, 
I have characterized to our legislature before, is really 
everything on the spectrum.
    If you look at when we went into design build to deliver 
projects, that is an increase in the public-private partnership 
when you are working with the contractors and the consultants. 
Or construction manager-general contractor, that is another 
movement on the scale of a public-private partnership.
    Maybe this is the horror story. We have evaluated doing 
full tolling on a brand new freeway facility as a public-
private partnership, and the public pushback was tremendous 
against that because there was a fear that they were going to 
lose their ability to control; they were going to be one level 
away from being able to control.
    But we also do public-private partnerships right now in our 
rest areas, where we work with private companies to provide 
facilities and features in our rest areas that we couldn't have 
done before. We do public-private partnerships with our Web 
based applications, where we will provide advertising 
opportunities. Our legislature is going to move a bill this 
session.
    We have talked about doing it with our IMTs, Incident 
Management Teams, but our public safety officers did not want 
to have commercialization of those Incident Management Teams, 
but we are going to do courtesy patrols that will be public-
private partnerships.

[[Page 78]]

    So the idea is, I think, a very important one that we need 
to continue, and it is going to continue to evolve in the 
country, and I believe there are opportunities for public-
private partnerships whether you are in a rural State or in an 
urban area as well, so it is not one size fits all.
    Senator Van Hollen. Got it.
    Mr. Corless. Senator Van Hollen, I am a big fan of public-
private partnerships. In a small scale, with a Civil Lab 
program, that is what we have been experimenting with in 
Sacramento, California.
    But I do want to say something that I think is very 
important. I don't believe that a public-private partnership is 
the way to generate revenue that is just sort of sitting out 
there mythically waiting on the sidelines; it is a way to 
manage risk. That is really the benefit of P3s, is that it 
manages risk; it puts it in the private sector. In order to do 
that well, we in the public sector have to be good dealmakers; 
we have to understand actually how to make a deal and what the 
private sector brings and what we need in terms of the public 
interest.
    But with a few exceptions, toll roads perhaps being one of 
them, we are not making a profit in the transportation sector. 
That is not what we are doing. We are moving people and goods 
and bits of information. We decided long ago that movement was 
a public good, so there is not, generally speaking, a profit 
there. So we have to be careful that this is not some sort of a 
recipe for them coming to save the Federal transportation 
program. It is a tool which we should be using far more often.
    Senator Van Hollen. And let me be clear. I think private-
public partnerships are an innovative way to try to leverage 
some additional resources. As you say, the goal is not to make 
a profit, and that is where public oversight is absolutely 
essential, kind of a utility type model. There have been some 
examples, like parking garages, where all of a sudden people 
were paying a much bigger fee, and it was going into bank 
accounts of some Wall Street banks.
    So I am just suggesting that if we don't get our act 
together at the Federal level and increase the Federal funding 
component of what we do here, you are going to see more 
pressure for leveraging additional funds through public-private 
partnerships. And while they may be available in both rural and 
urban areas, they are going to be more available in urban 
areas, so I am just encouraging everybody to come to the table 
to come up with a solution for Federal revenue.
    Senator Barrasso. Thank you, Senator Van Hollen.
    We have a briefing with the Secretary of State and 
Secretary of Defense coming up within about 25 minutes, so if 
we could try to keep it to 5 minutes each.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Corless, you indicated earlier that you really like the 
idea of the options that are made available so that we can 
address local needs based upon what the demands are in an urban 
versus a rural area, and I got to thinking it sounds good 
because in South Dakota we are rural, and to be able to do this 
is helpful for us. Yet at the same time, one of the benefits of 
having a Highway Trust

[[Page 79]]

Fund, and one that has stood the test of time over literally 
decades, has been that this has been a Trust Fund for 
infrastructure development, and we restrict it to that.
    The more lenient we are in terms of what is included in 
that means, then, that we risk the chance that the public will 
see this as one more opportunity to tax them for those areas 
that may be somewhat related to transportation, but not 
necessarily for brick and steel and so forth, and asphalt.
    Talk to me about how you view this in terms of the urban 
challenges you face and how we still keep that sense of 
confidence in the public that gas tax money is going to go to 
roads and bridges, and not to other types of designs and 
attempted changes of, as you say, moving people at the right 
time of the day as opposed to actually building concrete roads.
    Mr. Corless. It is a great question, Senator. Let me be 
clear. I think to keep the trust in the Trust Fund we have to 
keep it focused on transportation, on moving people, goods, and 
information. I don't advocate for any more mission creep than 
that.
    However, I do think that we are at a point now in our 
transportation system where we need to actually begin to 
transition from constructing to operating. We have high poverty 
in our rural areas. Moving people from point A to point B 
sometimes takes operations funding.
    To be clear, the Trust Fund was set up to build the 
interstate system. It was set up as a construction program, so 
it is a question in front of you in terms of how much you want 
to allow some operations. There is some flexibility already. We 
have the congestion mitigation air quality funds, CMAQ, the STP 
block grant funds. We are able to use some eligibility in some 
of those.
    I don't think we should transition to an entirely 
operational program, but I do think it is in the Federal 
interest to basically be a seed investor to get some of the 
best ideas out there going, but to limit it, say, for a 3 year 
window on some of these more operational improvements. That is 
how we use our CMAQ funds. I think we could actually extend 
that into other sources of funds so that we can get the most 
innovative projects possible.
    Senator Rounds. Thank you.
    Mr. Braceras, your thoughts. Once again, I think this is 
the biggest threat we have to being able to pass a long term 
project, is making sure that we can find the appropriate split 
between, as Mr. Corless has suggested, operational needs versus 
construction and reconstruction needs.
    Your comments?
    Mr. Braceras. Yes. Thank you, Senator. I believe focus is 
very important in what we do. That is how we are going to 
develop the trust that we need from our citizens to be able to 
deliver this program. In the State of Utah, maybe we are lucky 
in this way. Our Federal money makes up about 20 percent of our 
total program, so we have the gas tax that I talked about 
earlier, but we also have just over 21 percent of the State-
wide sales tax that goes for capacity projects. So, we focus 
our entire Federal program on the simplest maintenance projects 
that we have on the State, so we are doing pavements and bridge 
projects, and we can very clearly show

[[Page 80]]

what that program is delivering for our citizens, and it really 
is that focus, I think, is important.
    So, as you consider where you want to go with the next 
reauthorization, I believe being very clear on what you are 
trying to achieve with the Federal program is going to be 
important. We are going to put a man on the moon type of thing. 
But that is a very important part, I believe. We have to 
provide that vision.
    Senator Rounds. Mr. Lanham, we are going to run out of 
money, according to the forecast right now; the Trust Fund is 
there. What should be the focus of the Trust Fund resources we 
have?
    Mr. Lanham. Senator, I think we need to take a hard look at 
what our mission is on the Federal level and what it is that we 
need to be able to spend money on, and what should be the local 
responsibility. I think we are at a point where I think do we 
have the money? Can we afford it? If we can't, then what do we 
need to be doing with it on a priority, and that is what we 
need to focus on. I think we stretch too far with too little, 
and we are not completing things.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Senator Barrasso. Thank you, Senator Rounds.
    For the Senators just arriving, we have a briefing with the 
Secretary of State and the Secretary of Defense in about 15 
minutes, so I am going to ask that people try to stay within 
the 5 minutes.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Chairman Barrasso and 
Ranking Member Carper, for holding this hearing today to 
examine our Nation's transportation infrastructure needs.
    In the Northeast, and in New York in particular, we are 
faced with the challenge of aging infrastructure that has 
outlived its useful life and needs repair or replacement. On 
top of that, climate change fueled sea level rise and extreme 
weather threaten to put our infrastructure at risk if we do not 
rebuild it in a more resilient way.
    Our rail infrastructure is literally crumbling. Our century 
old Hudson Tunnel, used by Amtrak's Northeast Corridor and 
hundreds of thousands of New Jersey transit commuters each day 
are at serious risk of failure. This already aging tunnel has 
been made worse by flooding and corrosion during Super Storm 
Sandy. Closure of that tunnel would shut down Amtrak service 
for people trying to get from New York, Boston, and Providence 
on one side of the Hudson River to cities like Newark, 
Philadelphia, Wilmington, and Washington, DC, on the other 
side. It would be nothing short of a disaster, and an avoidable 
one at that.
    That is why I cannot talk about our infrastructure needs 
without mentioning this fact: every day the current 
Administration delays moving forward with the Gateway Program, 
they are gambling not just with New York's economy, but the 
economy of the entire Northeast region. The Administration 
should stop stalling and work with New York and New Jersey in a 
constructive way. They should begin by releasing the 
environmental impact statement for the Hudson Tunnel so that we 
can move this critical project forward.

[[Page 81]]

    We also need to ensure that we are fully investing in our 
subways, commuter railroads, bus services. At a minimum, we 
need to protect the 20 percent set-aside for mass transit in 
the Highway Trust Fund.
    But we can be doing even more to deliver additional dollars 
for transit capital and maintenance projects. Funding is 
necessary to fix safety problems and expand capacity to keep up 
with the demands of riders who will rely on public 
transportation to get around. We shouldn't be waiting for 
trains to break down or crash into platforms, or multi-hour 
delays that are basically leaving our commuters stranded, 
unable to get to work on time. There is such a sense of urgency 
in our city right now that we have to do something to improve 
our subways and commuter railroads, so we have to get serious 
about the problem.
    New York's infrastructure challenges are not limited to 
just rail and transit. According to our most recent data, there 
are more than 18,000 structurally deficient bridges in our 
State, including the Brooklyn Bridge. We also need to think 
about our roads and highways, and how to integrate technologies 
like autonomous vehicles that have very different operational 
requirements than existing vehicles, and that includes 
everything from roadway signage to lane markings to pedestrian 
safety. There are also many rural highways in upstate New York, 
as there are across the country, that will prove challenging 
for these vehicles to operate safely on.
    I hope that Congress looks forward to the next surface 
transportation reauthorization in 2020, as well as other 
legislative priorities for infrastructure. We have to take a 
comprehensive approach that provides funding necessities for 
highways, bridges, railroads, safe and resilient investments 
that meet our transportation and mobility needs.
    Two questions with my minute and 40 remaining.
    Mr. Corless, what more should Congress be doing to invest 
in public transit and ensure that transit agencies have the 
ability to maintain their existing infrastructure and meet the 
current and future capacity needs of riders?
    Mr. Corless. Senator Gillibrand, thank you for that 
question. Even in Sacramento we are now having over 40 days a 
year above 100 degrees. Our light rail system is breaking down 
due to the heat, and we are stranding people, and they are 
walking along the train tracks.
    So whether it is the New York Metro region or a city like 
Sacramento, here is the fact: we have aging mass transit 
infrastructure that was funded federally in the last five 
decades that is now actually about to fall apart, and you 
cannot do that with just simple FTA formula funds, so we need 
some sort of infusion, a pilot program, if you will, to rebuild 
the transit systems big and small across the country, because 
the formula funds are not going to do that, and it is getting 
past the point of being unsafe.
    Senator Gillibrand. And what would be the consequences for 
transit riders if funding of the mass transit account of the 
Highway Trust Fund was reduced or eliminated?
    Mr. Corless. It would be pretty catastrophic, because I 
think, again, you are already seeing--I don't have to tell you 
about the New York subway and Amazon moving over to Long Island 
City.

[[Page 82]]

You are having a hard enough problem as it is. So I think the 
connection between transportation in general, transit in our 
major metro areas and economic prosperity is strong, and we 
can't lose it.
    Senator Gillibrand. Thank you.
    Thank you, all of you, for participating.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand.
    As I turn to Senator Capito, we are going to conclude the 
hearing a few minutes before 11, so that gives time for 5 
minutes for you and 5 minutes for Senator Whitehouse.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you for being here today. It has been an 
interesting conversation. I am from a rural State, West 
Virginia, and we would be benefit immensely from future 
investments in surface transportation. Some people think 
Senator Byrd has paved the entire State of West Virginia, but 
we still have things like the King Coal Highway and Coalfields 
Expressway and Corridor H that we are looking on, and they are 
different highways to build because of our terrain. I am sure 
Mr. Braceras can identify with that, being from a mountainous 
State as well.
    But just last year West Virginians voted via referendum to 
approve a $1.6 billion in road bonds to fund projects across 
the State. I talk about it quite a bit because our State is 
known to not be one of the wealthier States, wealthier 
citizens, but our citizens really sort of rose up and said this 
is important to us. We use our roads frequently, we are rural, 
we use them for everything, and crumbling bridges and potholes 
and other things that are difficult for us are very important 
to everyday lives of everybody citizens. So $1.6 billion is 
quite a big stretch.
    And you noted in your testimony, Mr. Braceras, that 33 
other States have made other improvements, 31 States have 
raised their gas tax, which we did that as well.
    So, what I would like to see in a future infrastructure 
package is a reward to the States that are really stepping up 
and putting their bang for the buck by their States, and I 
would like to know, if anybody would like to respond to that in 
terms of how you think that the State really taking that 
initiative.
    You mentioned the Federal input into Idaho was only, what, 
22 percent. That is pretty impressive. What would your comment 
be on that?
    Mr. Braceras. I think, recognizing that States are stepping 
up and filling the needs, the citizens clearly need and want 
transportation systems to work; they depend on it every single 
day.
    Senator Capito. And it is a political winner, too.
    Mr. Braceras. I had a phone call from the Wall Street 
Journal right after the legislature raised the gas tax in 2015, 
and they said, well, isn't Utah a pretty red State? This is 
unusual for a conservative State.
    And I said, you know what, it is a conservative principle 
to take care of what you have and have a lower cost of 
ownership, and that is what our legislature saw, is that by 
investing in infrastructure, they were actually saving the 
taxpayers money in the long run; and that is difficult because 
you are looking at a longer I call it political

[[Page 83]]

timeframe is not really the same as an engineering timeframe 
sometimes, or economic timeframe, so it becomes difficult to 
do, but you have to develop that trust.
    So it is very critical, I believe, for this Nation to be 
able to step up and develop what I call a world class 
transportation system. If we are going to continue to be 
leaders in this world, we need a world class transportation 
system.
    Senator Capito. Let me ask you, Mr. Lanham, a question. I 
am a big proponent of expanding our broadband infrastructure, 
which I think goes hand in hand with our surface 
transportation. In your experience of building, what are you 
seeing advances around the country in terms of dig once kind of 
propositions where you are putting the infrastructure in for 
fiber and other things at the same time you are doing 
improvements to the road transportation or building a new road?
    Mr. Lanham. Yes, ma'am, Senator. We see a lot happening in 
that area. It is complicated, too, because there are so many 
different entities that own these facilities to get them to 
come to the table, because they are providing service for the 
public, they are occupying the public right of way free of 
charge, and yet they provide nothing but headaches to my 
friends for trying to execute projects. But we are seeing come 
and trench, where in one spot everybody goes in at the same 
time; better engineering, better documentation about where they 
are at.
    So, what we see is then building a library of information 
that we will be able to protect that asset in the future 
because we know where it is at and what is actually there with 
an accommodation for expansion.
    Senator Capito. Well, thank you for that.
    The other thing I would comment, one of the comments you 
made about constructing a toll road in Idaho, we had a very 
similar experience in West Virginia where it was simply a 30 
mile four lane to make four lane, and the local folks just 
really got very, very upset. I mean, it was going to be $4 both 
ways. That is a lot of money.
    So they were going to opt to go back down on that dangerous 
two-lane, which defeats the purpose of building a safer 
highway. So sometimes toll roads may be an answer in a lot of 
cases, but in rural areas it is really, really tough to have 
localities buy into that.
    Thank you all very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    I just want to say a word about smaller coastal communities 
and the infrastructure needs that they have. I know Utah is not 
very coastal, and even Sacramento isn't very coastal.
    Mr. Corless. Not yet.
    Senator Whitehouse. Yes, exactly.
    [Laughter.]
    Senator Whitehouse. We are working on it. Our problem in 
Rhode Island is that by the time Sacramento gets coastal, there 
is a hell of a lot less of Rhode Island, and we don't want that 
to happen.
    But we have, in my State, about 10 to 11 inches of sea 
level rise since the hurricane of 1938, the really monster 
storm that hit us

[[Page 84]]

back then. So not only do you stack up that extra sea level for 
the next big one, but it is not that way just along the shore, 
it is also that way all the way out to sea. So, when you are 
dealing with storm surge, you have that whole higher heap of 
ocean out there that is now surging ashore.
    People aren't very expert yet on how you correlate 
additional sea level rise to storm surge. You know it is at 
least about 10 to 11 inches. It could be a lot more. So we have 
communities who are facing this problem. We have communities 
where, in a storm, you have to figure out where you pre-deploy 
a fire truck.
    Senator Gillibrand was here. One of her neighborhoods 
burned in New York because the fire and the fire trucks were 
separated by a flooded area. If that happens, it is a terrible 
thing for folks.
    So there is this whole new planning for increased sea level 
risks, storm risks that coastal communities are facing, and 
people are starting to get on their case. Moody's is starting 
to judge their municipal bonds based on sea level rise storm 
surge kind of risks and how ready they are for that. Freddie 
Mac is warning of a property values collapse in coastal areas, 
which would have a terrible effect, obviously, on the tax base 
of those smaller communities, so there is a warning coming from 
Freddie Mac along with the warning from Moody's.
    And if they turn for help to FEMA and try to figure out 
from FEMA maps what this risk looks like, they are being 
misled, because our experience has been that FEMA maps are 
spectacularly wrong. We have had to do State level and local 
work in Rhode Island to do the coastal mapping, Mr. Chairman, 
because FEMA is unreliable as a partner in terms of the 
accuracy of its mapping.
    And it is not just Rhode Island. When the big hurricane hit 
Houston, there was a 50 percent error between what FEMA 
predicted in terms of flooding and what flooding actually took 
place.
    So, if you are in a coastal community, you have your 
municipal bond people looking at you with a glinty eye saying, 
what is up, are you ready for this? You have Freddie Mac 
saying, by the way, these property values you depend on to pay 
for your municipality might collapse, so there is not just a 
lot of money pouring in. The mapping that you have to rely on 
to make these plans is not reliable. And there you are as a 
town manager trying to figure out how the hell do I handle 
this.
    So I love the conversation that we are having about 
infrastructure. I am all for very big investments in 
infrastructure. But before you do the infrastructure, you have 
to have the plan so that the community can get it right. And I 
think we have a big gap right now in helping particularly 
coastal communities plan for this. It may be that the weird 
temperature considerations that you described in Sacramento, 
Mr. Corless, are a similar kind of analogy, something new that 
small communities have to deal with.
    I know that Phoenix, Arizona, for instance, is having to 
entirely figure out how it redoes its emergency response 
staffing because it gets so hot for so long there that people 
can't work out of doors in that heat; and if you are a 
firefighter, you can't decide to work indoors that day, you 
have to go where the fire is.
    So they have to wholly redo how they staff, and they have 
to have a whole extra team for cooling people down. It changes 
the

[[Page 85]]

way they work. The airport had to be closed because the tarmac 
was melting and the air was too thin for jets. So there are all 
these problems that emerge, and it is really hard for local 
communities faced with these problems to think their way 
through them with no support in a very constrained municipal 
budgetary environment.
    So, any way in which you all working on this can help keep 
your focus on this and your attention on this, I think it is 
really, really important. Just going back and rebuilding in 
place what we already built is probably not going to work. We 
have to understand how dramatically the climate is changing. 
And if we are going to build 30, 40, 50 year projects, we have 
to be planning for the full lifecycle of those projects.
    So my time is out, and I just urge you to think about that 
as we work forward. Infrastructure is great, but these peculiar 
and changing conditions that are driven by climate change and 
carbon emissions absolutely need to be taken into account, and 
we are leaving small communities stranded without the support 
to help them work through a lot of new science and a lot of new 
engineering.
    Senator Barrasso. Well, thank you very much, Senator 
Whitehouse.
    Thank you to each of our witnesses who are here. We are 
very grateful. We are going to leave the hearing record open 
for 2 weeks in case others have questions. They may provide 
written questions. We would appreciate your written responses.
    I want to thank all of the members for attending, as well. 
I especially want to thank our esteemed guests for their time.
    Yes.
    Senator Carper. All I want to say is we have a lot of 
hearings in this Committee and other committees that we serve 
on. Some of them are really good; some of them maybe less. This 
was terrific. You all did a great job, and I just want to 
applaud you and thank you for being here. It may serve as a 
catalyst and give us some good ideas to work with. Thank you.
    Senator Barrasso. Thank you again.
    The hearing is adjourned.
    [Whereupon, at 11:01 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]

[[Page 86]]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
